Volume 1: Lessons From State Initiatives




                      -
                   Inspector General

                      SEPTEMBER 1997
                       OEI-05-9640260
 This report describes initiatives underway in 11 states to implement results-based systems
 for managing public health programs. It draws on the experiences of these States for
 insights into the development and implementation of such systems.



 Government-wide interest in enhancing the performance and accountability of
 government programs, including its grants programs, intensified with the publication, in
  1993, of the Vice President's Report on the National Performance Review. As a result
 of this and other governmental and nongovernmental influences, policymakers have been
 actively considering changes in Federal grantmaking and oversight authorities. Some
 proposals call for combining several categorical and block grants together and replacing
 them with performance partnerships. Performance partnership grants would be
 negotiated between Federal Government agencies and the States.

The United States Department of Health and Human Services (HHS) has been
considering performance partnership grants for some of its public health programs for
several years. These arrangements would combine various categorical grants into
performance partnerships and would reshape several of its block grant programs.

The Assistant Secretary for Planning and Evaluation asked the Office of Inspector
General to identify and examine State initiatives that use outcomes measures to assess
the performance of their public health programs.

This report is based on a review of results-based initiatives in the preventive health,
maternal and child health, substance abuse and mental health programs of 11 States. We
conducted onsite discussions in seven of these States: Florida, Illinois, Massachusetts,
Nebraska, New York, North Carolina and Washington. We interviewed officials by
telephone in four other States: Georgia, Minnesota, Ohio and Oregon. A companion
volume contains brief descriptions of these States' initiatives.

STATE INITIATIVES

lThe results-based accountability initiatives we mrnined are generaw of two t y p :
(1) broad @om at Statewide strategic planning and priody setting, and (2) systems focused
on target populations and spec@ program interventions.

W e States, in initiating thkir resulfi-based systems, have several characterirtics in common:
public pressures for better government, top-level commitment, and atensive stakeholder
involvement.
 State oficicak see m n y ben@B fp-srn devebpmnt and kpapkmn~ationof rdb-based
 system a d are using data in vanbus ways. However, data from these system are ranlikely
 to becom the sole criteria or diving force for prpqamr~labic,budgemy, or contracting
 decisions.



In hebophg their r d & - b m e d accountabiliy systemy Stata face several Isignifiant
chahnges: kues wibh the mbzs~6pesthemselves, data con.cemY the use of r d y a d
system c a p ~ c i t k .

Measurement: States must ensure that measures are related to program missions and
goals, adopting a mix of different kinds of measures in order to balance the limitations of
outcomes, output and input measures. They must also ensure that measures are
appropriately focused on true priorities.

Data: In considering measures, State officials struggle with whether the necessary data
are available and reliable, as well as whether the data can be obtained in a timely
manner in order to make necessary programmatic adjustments.

Standards: States must consider whether, and how, they will adopt standards associated
with the measures they select. If they adopt standards, what are the penalties or results
if the standards are not met, and what conclusions can be drawn about program or
contractor performance?

Capacities: States must also fairly assess the capacities within their system to analyze and
interpret the information they obtain through their measurement and data collection
systems.



7Iaei-e are Isigni@ant challenges facing HHS as it considern m e directbnr for its
perfomurnce paptnernhip grant initiative. 7lw abiliry ofH6-IS to address these chadlenges
h e & and flectively will aflect the smcess of irs gorts to impkmenr meanin@l
perfomurnce partnepship with the States. These challenges include:

Usefulness to States: How can HHS ensure that its performance partnership approach,
relying on results-based systems for accountability, will be integrated with the State's own
performance management efforts?

Effectiveness of Partnerships: What kind of administrative infrastructure can best
support the inter-agency partnerships?

Information Exchange: How can HHS best support an exchange of information among
Federal and State agencies and with the research and academic communities?
 Data Collection: How can HHS maximize the usefulness of its current data collection
 systems to enhance the effectiveness of its performance partnerships with the States?

 Research Agenda: How can HHS best leverage its resources to ensure a research
 agenda that addresses the major information needs of the States and its own agencies?

Evaluation Capacitv: How can HHS ensure that its agencies and the State agencies with
whom they partner have adequate capacity to evaluate the performance-based data
emerging from these systems?

CONCLUSION

This report documents some important initiatives that are underway across the country to
develop more meaningful approaches for managing public health programs. Developing
these systems is inherently messy, difficult and time consuming. It involves multiple
stakeholders with complex, sometimes competing, agendas. It is an expensive endeavor
and can make heavy demands on limited resources. Progress is neither straightforward
nor single-tracked. ;et, as is clear from the initiatives described here, States are making
serious efforts to develop results-based systems and are moving forward.

We document in this report a number of benefits State officials we interviewed see
emerging from their efforts. They bear repeating here. These benefits include:
(1) obtaining information efficiently, which can be used to improve program
performance; (2) empirically demonstrating program results; and, (3) obtaining consensus
among stakeholders on program missions and goals. We believe that these are significant
benefits to program managers and strategic planners.

The ultimate determinant of whether these systems succeed, however, may well be their
usefulness to those most vested in the programs: legislators, administrators, providers,
advocates, and consumers. The challenge facing these stakeholders will be to achieve an
appropriate balance when using the data from these systems to enhance decisionmaking
about program improvements, budgets and contracts, and feedback to providers and
consumers.

AGENCY COMMENTS

We received very positive comments from the Assistant Secretary for Planning and
Evaluation, the Substance Abuse and Mental Health Services Administration, the Centers
for Disease Control, the Health Resources and Services Administration, and the
Secretary for Health. Their comments offered further insights on such matters as: the
impact of the Government Performance and Results Act in helping shape performance
partnerships; the data and performance measurement problems facing States; the
importance of information *exchange;and, the role of Federal agencies in performance
partnerships. We were also informed that the National Research Council's Panel on
Performance Measures and Data for Public Health Performance Partnership Grants has
recently issued its first report entitled 12ssessmentof Pe~omzanceMeasures for Public
Health, Substance Abuse and Mental Health."

Based on these comments, changes were made to the report as appropriate. The
complete text of these comments can be found in Appendix B. We regard them as an
integral part of the report and recommend them to the attention of the reader.
                             I 3 OF CONTENT

                                                                                                 PAGE

E % E m S m Y                  ..........................................                               i

rnOD1UrnON        .................................................                                     1

STATE                   .......................................... 5
STATE                      .................... ;......................                               10

FEDERAL C33AILENGE              .......................                 .
                                                                        ;.   ..............           15

CONcCkUSION    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .18. . . . . .
MPENDIrn

A Federal Public Health Block Grant Programs             ........................ A-1
B: AgencyComents       ...........................................                                  B-1

C Endnotes   ...................................................                                    C-1
 This report describes initiatives underway in 11 States to implement results-based systems
 for managing public health programs.      draws on the experiences of these States for
 insights into the development and implementation of such systems.

 BACKGROUND



The Federal Government currently administers both categorical and block grants to the
States for the purposes of addressing public needs. Categorical grants are for specific
and narrowly defined purposes, and generally include federally-specified eligibility and
reporting requirements. Block grants are broader, encompass a larger range of purposes
and goals, and contain fewer Federal prescriptions.

Government-wide interest in enhancing the performance and accountability of
government programs, including its grants programs, intensified with the publication, in
1993, of the Vice President's Report on the National Performance Review. As a result
of this and other governmental and nongovernmental influences, policymakers have been
actively considering changes in Federal grantmaking and oversight authorities.'

Some proposals call for combining several categorical and block grants together and
replacing them with performance partnerships. These grants would be negotiated
between Federal Government agencies and the States. They would allow States greater
flexibility in meeting key national and State objectives. In return, States would provide
the Federal Government with performance data and work with the Federal Government
to establish goals.



The United States Department of Health and Human Services (HHS) has been
considering performance partnership grants for some of its public health programs for
several years.2 (See Appendix A for a fuller description of the Federal block grants for
preventive health, maternal and child health, substance abuse and mental health.)

Over the past several years, the President has included provisions for performance
partnership grants in his budget. Several legislative proposals to create such grants have
also been introduced in the             While not yet enacted, these proposals reflect
the growing consensus about the need to improve the management and structure of
Federal-State grant programs for health.
The concept of performance partnerships for public health is also rooted in, and made
possible by, activity at all levels of government and in the private sector to assess the
impact of various health care interventions on health status and clinical outcomes.
Spurred on by high costs, quality concerns, technological advancements in data storage
and processing, increasing penetration of the health care marketplace by managed care
organizations, and consumer demands for information, Federal, State, local, nonprofit
and private organizations have been working to improve the way health status and
outcomes are measured and used.4 This movement was given added impetus by the
adoption of Total Quality Management principles by many healthcare organizations
likewise seeking to introduce, within the confines of their own systems, the collection and
use of meaningful data on patients and providers in order to identify and implement
system improvements.

These developments, along with other Federal initiatives, have formed a backdrop for
HHS efforts on performance partnership grants in its public health program^.^ Federal
initiatives, such as the Government Performance and Results Act, seeks to improve
agency performance and results through results-based management. This technique uses
the same process of ,,igaging stakeholders, identifying goals, and formulating
performance measures as that employed by the States.

In mid-1995, HHS requested the National Academy of Sciences to examine and make
recommendations for specific performance measures that could be used in public health
performance partnerships over the next few years. In 1996, HHS, in collaboration with
several national health organizations, convened a series of regional meetings with States
to discuss current activities in developing performance measurement systems for public
health program^.^ The results of these meetings were provided to the Academy to assist
in its analysis. The Academy issued its draft report in the fall of 1996.~ It is now
assessing further developmental work needed in data systems to support performance
measurement systems.



The Assistant Secretary for Planning and Evaluation asked the Office of Inspector
General to identify and examine State initiatives that use outcomes measures to assess
the performance of their public health programs. Its primary interest lies in knowing
more about the nature, extent, and uses of these outcomes measurement systems, and
lessons learned and challenges faced by the States, building upon information supplied at
the regional meetings sponsored by the Department.

We contracted with Penny Thompson, a principal in Management Evaluation Training,
LLC, an evaluation and management consulting firm, to undertake this study. The Office
of Inspector General staff were project officers and participated in all phases of the
study.

In t,his report, we focus on 11 States' initiatives. We intend this report to serve as a
resource document that offers insight into the experiences thus far of a number of States
 that have engaged in the process of developing outcomes measurement systems for
 public health. It is not an assessment of the outcomes measures themselves, their
 appropriateness, or adequacy. It is not exhaustive of all State efforts or even all efforts
 in the States we examined.

 A companion report, Results-Based Systems For Public Health Programs, Volume 2: State
 Case Studies, OEI-05-96-00261, contains short, descriptive summaries of the State
 initiatives we examined.



This report, and its companion volume, are based on a review of results-based initiatives
in the preventive health, maternal and child health, substance abuse and mental health
programs of 11 States. We conducted onsite discussions in seven of these States:
Florida, Illinois, Massachusetts, Nebraska, New York, North Carolina and Washington.
We interviewed officials by telephone in four other States: Georgia, Minnesota, Ohio
and Oregon. Two other States included in our first round of State contacts, Colorado
and Texas, were dropped from our interviews due to resource constraints.

We initially wrote to all officials in all the States mentioned above and requested
available documents on their efforts. These documents served to confirm the presence of
reported efforts and to form the basis for additional discussions with State officials. As
we interviewed State officials onsite and by telephone, we often received or requested
additional documentation which we then reviewed as well.

 The criteria we used in selecting the State initiatives described here included:
 (1) suggestions from government and non-government experts, researchers, and analysts
identifymg States with positive experiences in developing and implementing results-based
systems; (2) our own review of documents associated with individual State initiatives;
 (3) geographic representation and program balance to reflect the areas of maternal and
child health, substance abuse, mental health, and preventive health; and, (4) our own
judgments about whether particular initiatives were sufficiently different from, and less
well known than, others.

We conducted this study in accordance with the Quality Standards for Inspections issued
by the President's Council on Integrity and Efficiency.



As we reviewed the available literature on this subject, designed this study and conducted
these interviews, we became increasingly sensitive to the importance of consistent, clear
terms in describing efforts in these areas. Terms and definitions used for the purposes of
this report and its companion volume include the following:

Results-Based System: An initiative focused on using measurement systems to gauge
program outcomes and effectiveness, with accountability attributes which might include
public reporting, goal setting, and standards or requirements for meeting goals applied to
program officials, providers, contractors or grantees.

~ u t c o m e sMeasures:
               '         Measures reflecting ultimate programmatic results, including health
status and risk behaviors.

Performance Measures: Measures reflecting a program's more immediate effectiveness
or efficiency, including activity levels, and direct accomplishments as a result of services
rendered.

Standard: A measure set as a requirement and expected threshold of performance for
States, counties, providers or other partners in the results-based system.

Goal: A measure representing the end to which efforts by States, counties, providers or
other partners in the results-based system are aimed.
 The results-based acmuntability initiatives we e x m i n d are gene*      of two types:
 (1) broad efforts a t Statewide strategic planning and priority setting, and (2) systems
 focused on target populations and specific program interventions.



Some States are developing results-based systems to assess progress towards broad,
health-related goals for the States' populations. The development of measures in these
cases is usually connected with strategic planning efforts-designed to identify Statewide
priorities and sometimes with reorganizations of health functions within a State. These
efforts may also be duplicated at the local level, where officials adjust goals, priorities
and measures based on their own assessments of local populations' health status and
needs. We found examples of such efforts in Georgia, Florida, Minnesota, New York,
North Carolina, Oregon and Washington State.

Georgia's efforts are illustrative of State efforts of this type. In 1994, the State's
Governor appointed a 21 member Policy Council for Children and Families. The
following year, the Georgia legislature statutorily established the Council as a 19 member
panel composed of leaders in business, child and family advocacy, local government and
religion along with State directors of cognizant agencies. The Council issued a report in
1994 outlining five results areas that it seeks for children and families, including healthy
children. The Council established a Results Accountability Task Force which established
26 benchmarks for the five results areas identified by the Council. Benchmarks for
healthy children include: (1) reducing the percentage of children who have untreated
vision, hearing or health problems at school entry; and, (2) reducing the pregnancy rate
among school age girls.

New York's efforts are ..lso illustrative of State efforts of this type. In the past year, New
York's State Department of Public Health has initiated a process to develop results-
based accountability systems for its Statewide public health programs. As a first step, it
initiated a comprehensive review process that identified 12 public health areas of high
priority for future action. Each priority area has measurable objectives to guide State
and community actions for improving the health of New Yorkers.

Program Spec@c Effor~s

Some States are developing results-based systems to assess the effectiveness of particular
interventions and programs. In these cases, measures are often developed in connection
with efforts to develop consensus and agreement on program missions and expected
results. Program specific efforts are generally focused on the target populations actually
receiving some kind of service from the program. We found examples of such efforts in
Florida, Illinois, Ohio, Massachusetts, New York, North Carolina and Washington State.
 Ohio's efforts in its Early Start Initiative are illustrative of State efforts of this type.
 Ohio's Early Start Initiative is focused on providing integrated, preventive services to
 families with infants and toddlers at high risk for abuse, neglect or developmental
 disabilities. Currently, 30 of Ohio's 88 counties are participating in the Early Start
 initiative. An essential part of the project was the development of performance goals
 and data collection protocols.

 The Massachusetts Department of Mental Health relies heavily on contracts with local
 provider agencies to deliver its service programs. Its Area Offices, with their citizen
 advisory boards, negotiate with and monitor these providers of both inpatient and
 community-based services. The Department uses a system of results-oriented
 performance measures with its local providers of services.

New York's State Department of Health is working with Monroe, County health officials
on an initiative to: (1) support child and family health services through a single funding
stream of combined State and Federal funding sources, and (2) rely on results-oriented
objectives and indicators for ensuring accountability for performance. The Department
submitted the propowdlto the Federal Government for review in late summer 1996.

As evident from the above, often both kinds of efforts are taking place at once, but they
may or may not be explicitly linked. We found an example of an explicitly linked effort
in Nebraska, where program officials have designed a system to use outcome
measurements in conjunction with program specific performance measures. Nebraska
has initiated an ambitious project in which, within 1 year's time, a complete
reorganization of State health functions will have been designed and implemented. As
part of this effort, a performance accountability system has been developed to identify
outcomes, outcome indicators and performance measures for programs supported by the
new Health and Human Services organization.

In examining State efforts, we are able to categorize systems into two broad
classifications. Beyond that, because of the limited scope and duration of our visits,
document reviews and telephone interviews, we cannot present more refined models or
typologies of States' efforts. Within the two broad classifications presented here, the
variety of efforts reflects a wide range of choices available to State and local authorities
in developing systems they consider appropriate to their needs, available resources, and
other legislative and administrative imperatives.

In describing the State efforts, the data presented here should be emphasized as a
snapshot in time in a constantly changing environment in which State efforts will certainly
evolve. Perhaps even dramatic changes in direction will occur with significant changes in
State and local leadership, resources and other legislative and administrative imperatives.

(For a more detailed description of these initiatives, see the companion report, Results-
Based Systems For Public Health Programs, Volume 2: State Case Studies, OEI-05-96-
00261.)
 These States, in initiating their results-based system, have several characteristics in
 c s m s n : public pressures for better g o v e r n e n 4 toplevel c s d t m e n f and extensive
 stakeholder hvoPvement



These results-based initiatives have been influenced by: the performance measurement
movement that has become increasingly influential throughout government; the demands
of State legislators and the public they represent for more evidence of results and
program achievements; and, the interest in health reform at both State and Federal
levels. Many State public health programs have been particularly influenced by the
Healthy People 2000 initiative that established national public health objectives, goals,
and standards for the nation to achieve by the year 2000. This document has sewed as a
critical foundation and framework for several of the State efforts. described here. It has
helped the States to refocus their public health programs to achieve specific outcomes. It
has also served a larger purpose of familiarizing those outside the public health
community with a different approach for thinking about accountability in these public
services.



Most of the State initiatives described here were either initiated or strongly backed by
top-level State or agency officials. Sometimes, this commitment was in the form of a
catalytic event, such as the major reorganization of a department or a major piece of
legislation that required results-based systems. Other times, the commitment came from
a newly elected Governor or a newly-appointed department head.



All the State initiatives described here have involved a wide variety of stakeholders in the
development of their systems and measures (e.g. providers, beneficiaries, program
officials, advocates, and citizens). The development of partnerships with stakeholders
was identified by respondents as one of the key aspects of their success, albeit one that
was logistically difficult, time-consuming, and challenging.

For example, New York's State Department of Public Health sponsored a series of six,
l-day regional workshops across the State during May 1996. Participants identified
serious health problems in their communities, causes of those problems, and effective
interventions. An estimated 1,400 participants attended, representing local health care
providers, government officials, community-based organizations, educators, advocates, and
business and labor.

Florida's Division of Alcohol, Drug Abuse and Mental Health used workgroups with
stakeholders--providers, clients, legislative staff, oversight staff--to develop measures.
These workgroups were arranged around target populations, consisted of 15 to 30
 people, and met according to their own needs and schedules (some for a full day; some
 for two full days).

 For the Massachusetts Department of Mental Health, developing standards and
 indicators for residential services involved participation of Department staff, providers,
 consumers, and family members. The Department used focus groups to solicit feedback
 from these stakeholders on draft proposals it had initially prepared. The Department
 then considered the recommendations of the stakeholders as it modified the drafts. Final
 drafts were ultimately reviewed by a senior Department policy group before being
 approved by the Commissioner for implementation.

State officials see many benefits from development and .inolp1ernentation of results-based
system, and are wing data in various ways. However, data from these system are
unlikely to become the sole criteria or driving force for pragmatic, budgetary, or
contracting decisions.

State officials who have implemented results-based systems point to two key benefits
from their efforts: (1) obtaining information efficiently, which can be used to improve
program performance; and, (2) empirically demonstrating program results. State officials
also point to significant benefits from the process of developing results-based systems.
Officials frequently mentioned the value of obtaining consensus among stakeholders on
program missions and goals, and establishing lines of communication with key
stakeholders.

Other benefits may become apparent from further experience. Some of the initiatives we
examined are still in the early stages of implementation and are not fully operational. As
a result, we can not yet draw conclusions for these programs as to how information
obtained through results-based systems ultimately will be applied. Too, we did not
interview other potential users of these data--planning staff, legislators, and stakeholders,
among others--and so we cannot draw conclusions about how they might apply data from
these systems.

State officials we interviewed, who have had experience applying data from results-based
systems, indicate that performance and outcome data are most often used as part of a
larger mix of information and interests which determine how: (1) programs are
managed; (2) providers, contractors, and local offices are assessed; (3) budgets are
allocated; and, (4) contract decisions are made. For example, officials in Washington
State's alcohol and drug abuse program indicated that they had used data from their
results-based system to refocus priorities and interventions, but only after further
research and analysis. In Massachusetts, the mental health program uses results-based
data in its contracting process, but does not rely exclusively or even primarily on these
data to make its decisions.

One interesting development is the requirement by some State legislatures or executives
for agencies to submit outcome and performance data with their budget requests. This
suggests that executives and legislators might be increasingly inclined to make budgetary
and allocation decisions which at least take results-based data into account. The
systematic collection of this information across all State programs, in addition to spurring
activity to develop goals and measures, also allows executives and legislators to compare
mission statements, goals, outcomes and performance across agencies and programs.

Washington State, for example, is requiring each agency to submit 6-year strategic plans
as part of their 1997-99 biennium budget submissions. The plans must include the
agency's mission description, strategies, goals, objectives, timeliness, and performance
measures and standards. Florida is implementing its Government Performance and
Accountability Act of 1994 over an &year period. Agencies must submit performance
measures (input, output, and outcome) and standards in their budget submissions. In
return, they will have flexibility to reallocate dollars among categories and programs.

The use and focus of these results-based systems makes the case for a broad definition of
accountability, in which mission definition, public reporting, consensus building,
partnering, and the use of information to engage partners, target technical assistance and
close performance gaps are the key ingredients. This type of use is different from a
definition of accountability in which the results-based data are seen as a clear and precise
road map by which program managers can make clear distinctions between good and
poor program providers, effective or ineffective program interventions, or adequate or
inadequate budgets.
 In developing their results-bad accountability systems, States face several si
 challenges: issues with the measures themselves, data concern, the use of results, and
 system capacities.

These challenges are complex and not subject to quick solutions. Many overlap and
reinforce one another. Yet the extent to which States will be able to translate their
efforts into improved program effectiveness or more efficient targeting of public dollars
will largely depend on how they address these challenges and answer the questions they
pose.

Measures



In order to develop qpropriate measures, States must reflect on, and make decisions
regarding, their primary missions and focus. In the areas of preventive health and
maternal and child health, for example, the consideration of measurement systems has
stimulated an ongoing debate about the role and mission of local public health programs.
Is their mission one of providing primary care to the underserved; or assessment, policy
development, and assurance oriented towards improving the infrastructure for an entire
community; or some combination, and if so, with what balance? Likewise, in the
substance abuse and mental health areas, the question is similarly put: is the orientation
towards the community at large or towards target populations (e.g. those with current
problems or those at risk of developing them) which are served by the programs?

In addition, States must struggle with the questions of what outcomes are really desired
and how desired outcomes relate to accountability. For example, is a provider
responsible for treatment only, regardless of whether the mode of treatment is effective?
Or, more than that, is the provider responsible for whether or not the client obtains
employment and is able to become self-sufficient?

What k the proper mix of dinerent masures?

States must struggle through questions of the proper mix of measures: those that are
end outcomes, others that are "intermediate" outcomes or risk behavior-oriented, and
others that are capacity- or process-oriented performance measures.

Many experts consider the use of systems that are purely outcomes-based to be
inadequate. It can be difficult to hold program officials accountable for outcomes that
can be influenced by a wide range of factors. Results obtained through outcomes
measurement systems often raise a host of questions that require process and capacity
oriented data to help answer. Indeed, the use of outcomes measures in some of the
States we visited has increased the visibility and need for research, evaluation, and
 analytical support to interpret the data and conduct follow-up inquiries, rather than
 supplanting the need for such analytical support.'

 Appreciating limitations of systems relying solely on outcomes measures, the National
 Academy of Science recommended that HHS combine outcomes measures with process
 and capacity measures in its performance partnership grants with the state^.^ The
 States, too, are adopting approaches which include a mix of measures.

In Nebraska, for example, State officials have made an explicit distinction between
performance measures and outcomes measures, where the former is programmatically
oriented towards measures of effectiveness, efficiency and quality; and the latter is
oriented to broad health status measures. They believe-this mix of measures will help
focus on end results while providing more direct goals and measurements towards which
program officials can work.

In North Carolina, at the Department of Environment, Health and Natural Resources,
planners developed "Level I" indicators (health status indicators) and "Level 11" indicators
(output, capacity, risk behavior and process measures) which augment the information
available through the Level I indicators.



A long list of measures may cause those within the system to lose focus on what really
matters and to confuse priorities. A short list can provide too little data on which to
assess performance or make funding decisions. In Oregon, State officials are being
criticized in some quarters for measuring too much and losing sight of real priorities. In
New York, an earlier effort in strategic planning in the late 1980s was derailed by too
many measures and data points that prevented adequate tracking and accountability.
Officials now express concern that they have focused too much on a few goals and a few
measures and are not capturing all the health priorities of the State.

Data Concerns

Are the data available?

Most State efforts are intended to be practical and, therefore, use data availability as a
key criterion for the acceptance of a measure. However, this practice may compromise
the reliability and validity of the data. If States select measures primarily for the current
convenience and accessibility of data, important results may not be measured and
decisionmaking based on the measures will be inadequate and flawed. Yet, if States
identify important measures for which data are not available, or cannot be made
available, the system will be theoretical only.

Many States are facing a paucity of needed data, particularly at county and local levels.
In these situations, States must ask hard questions about whether funds are available to
collect additional data and who will collect them. If the States use funds to develop
 Statewide management systems or impose data collection responsibilities on providers,
 they must assess whether or not the collection of additional data will be seen as an
 administrative burden or as a crucial responsibility of program management.

Our conversations with State officials coniirmed the urgency of investing in focused
systems that can provide the core data necessary to support State-, county-, and provider-
level measurement efforts. In Illinois and Washington, officials responsible for alcohol
and substance abuse prevention and treatment programs emphasized the importance of
systems which can be altered easily, and unique identifiers to facilitate data analysis,
validation and matching.

A particularly thorny issue facing States is the lack of data available to properly assess
the impact of managed care arrangements on enrollee health and States' budgets.
Almost all of the States we contacted have yet to address this question, though many are
taking steps to do so. North Carolina does include requirements for data reporting in
managed care contracts and several other States mentioned that they intend to do the
same.



Even when data are available, the timeliness of obtaining them can present significant
problems. While the usefulness of data may be dependent on the rate of change of the
problem or environment, often data that are 2 or 3 years old cannot be used effectively
to assess current program performance, to sanction providers, or to allocate scarce funds.
In part, for this reason, Florida's alcohol, drug abuse and mental health program office
requires providers to collect and report on data. These data could be obtained by
matching data files with other State agencies, but would take considerably more time to
obtain using this method.

Use of Results

How will States develop and use standar.?

The States we examined are generally far away from the use of standards to require
accountability among providers or contractors. States have not been reluctant to develop
goals for broad health status measures, but have proceeded much more cautiously in
developing standards for measures applicable to specific programs or interventions. Even
when included in provider contracts or requests for proposals, standards tend to be
broad, flexible, used to trigger further discussions and analysis when not met, and used to
promote emphasis on results.

For example, Washington's Division of Alcohol and Drug Abuse has not implemented
standards for its performance accountability system. This decision was very purposeful.
The Division believes that without baseline data and more experience with the system, it
is unwise to develop standards. State officials report that providers there continue to be
wary about the development and use of standards.
 Florida's alcohol, drug abuse and mental health providers are given two standard
 deviations as a range of acceptable performance. In the integrated services proposal
 being prepared between New York State and its Monroe County, county officials are
 expected to obtain goals with ranges of acceptable performance. In both of these cases,
 performance outside the range would trigger additional validation, analysis, research and
 discussions, rather than automatic sanctions.




Officials in several States expressed concern about their exposure in reporting outcomes
and performance data. They are particularly concerned-about public and legislative
reaction when goals are not met. They believe the data can be used inappropriately by
stakeholders to assume that program managers have simply mismanaged or misdirected
their efforts, when, in fact, failure might be attributable to unanticipated or
uncontrollable external influences. These concerns of the State officials in many ways
mirror those of the programs' providers. In Nebraska, for example, the development of
standards was purposely set aside in order to make program officials feel "safe" as they
worked on developing a performance measurement system.

Some officials noted the difficulty of responding appropriately to the data in the following
way: does failure to achieve goals mean that the program should receive more money
(in order to help it achieve the goals) or less money (because it is a poorly performing
organization)? To answer this question, significant analysis and interpretation of data
must take place with a depth of understanding of environmental complexities that these
officials believe State legislatures and the public may not possess.

How do States balance accomtabilirp, wah pampsh@?

The above examples also reflect the difficulty States are facing in developing
measurement systems with the assistance and active participation of those whose
performance is being or will be measured. In Illinois, for example, officials observe that
their partnership with providers has not evolved as they would like because of concern
about how standards might be applied in evaluating their performance, particularly how
external factors beyond the providers' control might be considered. We found that this
concern was not exclusive to health care providers. To deal with this problem, some
States have downplayed standards, as discussed above.

System Capacities

W
il
 I resource investments in data systems and analytical evaluation be adequate?
As discussed above, the collection of key data on outcomes and performance only begins
a process of assessing performance, not ends it. In Nebraska, for example, officials
believe their future success depends on whether the necessary investments in these
capabilities will be made. And Washington's alcohol and drug abuse program officials
attribute their success in large part to having made adequate investments in non-
mainframe data systems and a research capability to support focused reviews based on
results.



Many States noted in their conversations with us the wide differences among their local
partners in staffing and expertise, as well as in mission definition and demographics. In
Florida, New York, North Carolina, Ohio, Washington, and Nebraska, officials pointed
out the variation in funding and density among the most populated and the least
populated counties in their States. These State officials pointed out that the ability and
interest within each of these counties to collect data, interpret it, and use it to manage
programs varies widely.
 Our inquiry has examined the initiatives of several States in implementing results-based
 accountability systems in their public health and mental health programs. Our primary
 focus has been on the States rather than on any efforts of HHS as it moves forward with
 its performance partnership initiative.

At the same time, from our conversations with many State officials, we have come to
appreciate the challenges facing HHS as it considers future directions for its performance
partnership grant initiative. The ability of the Department to address these challenges
timely and effectively will affect the success of its efforts to implement meaningful
performance partnerships with the States.

Since we have not examined Federal initiatives, we can not say to what extent agencies
are already addressing these challenges. In some cases agencies may have moved well
beyond some of these challenges or are well underway in addressing them. Nonetheless,
we present them here as important questions for Federal agencies that are working with
States to develop performance partnerships.

To varying degrees, States raised these questions with us as indicators they will use in
assessing the success of Federal-State partnerships. We do not intend the mere
exposition of these challenges to reflect on the progress Federal agencies are making in
pursuing performance partnerships. Rather, we intend them to reflect only the
complexity of the enterprise.

Usefulness to the States

4-Iow can K16-IS e w e that its parh~emhipapproach, relying on results-based system for
accountability, will be integrated with the States' own perfomme management @om?

The initiatives we examined confirm the seriousness and intensity of the States in
implementing results-based systems for their programs. The State programs described
here, for example, have already moved beyond the early talking stages and are deeply
immersed in the nitty-gritty work of planning, implementation, and refinement.

As with all intergovernmental initiatives, performance partnerships require
accommodation and consensus, as well as recognition of both common and different
needs, goals missions, capacities, and Federal and State environmental pressures. As
HHS works with States in developing performance partnerships, what are the lessons
HHS can learn from States ongoing experiences with results-based accountability systems.
Given the numerous efforts' underway in the States, how can the Federal-State
partnership accommodate and even support the variation in State approaches?
 To what extent will State and local officials be receptive to Federal leadership in light of
 their own unique and established methods, partnerships, resources, capabilities, and
 commitments?

 Effectiveness of Partnerships



A critical underpinning of the partnership grant approach is effective working
 relationships among numerous government stakeholders. The complexities of these
relationships go far deeper than a casual reference to "Federal-State partnerships" may
suggest. The experiences of the States described here indicate the essential cross-cutting
nature of many important public health goals and the need for clear roles, consistency of
requirements, and appropriate resources among the Federal agency partners, and
regional and headquarters offices. What are the roles for the Federal agencies involved?
Should one Department or agency have the lead, or should all those affected be equally
involved? What are the roles for regional offices? What staffing resources are necessary
for the technical assistance and dialogue essential for this new partnership approach?

Information Exchange




As HHHS and the States move forward with results-based accountability systems, they will
have a continuing need for information and expertise. Open dialogue among
stakeholders will greatly benefit the performance measurement efforts within the
Department. Such exchanges could lead, for example, to standard definitions to be used
across HHS, as well as models and best practices on working with States on performance
partnerships.

In its leadership role for performance partnership grants, the Department will need to
address many issues. For example, how can HHS learn from others about emerging
developments that can enhance continuous improvement among Federal agencies and
those of the States? What mechanisms, such as clearinghouses, advisory groups, or
Federal-State meetings, are appropriate for giving the Department essential feedback
and for informing itself, the States, and others with evolving knowledge, new ideas, and
new approaches?

Data Collection

hlbw can IHMS mmihize the usejkkss of its cwent data collection system to enhance the
ejJiectivenessof its peflomrtce prtnenhip grants with the S t ~ t a ?

The HHS supports extensive, significant collections of health and health-related data that
are critical to the success of States' efforts to develop results-based systems for
accountability. The States already rely heavily on Federal survey and epidemiological
data for their own purposes as well as for comparisons across States based on aggregated
data. Because these systems are complex and expensive to operate, it is important that
the Department ensure that its efforts, in so far as practical, meet the major, common
needs for data among the States.

Agenda for Research




Significant questions, both theoretical and practical, about results-based systems remain
unanswered. These have been identified and described in other sources.1° There is
obviously a clear role here for MHS in the evaluation of these efforts. From the
perspective of the States, however, it is important for the Department to appreciate the
significance of the States' research needs for informing their ongoing efforts to implement
effective systems.

Adequate Evaluation Ca~acitv




It will not be sufficient for HHS, or others, to rely primarily on performance data
reported by the States for its critical decisions about program effectiveness, allocation of
resources, and policy changes. These data should be considered only the raw materials
for subsequent evaluation and analysis, essential for informing deeper understandings of
what is actually going on. The data help frame the questions to ask; they, in themselves,
do not provide the answers. A significant threat to the long-term viability of
performance partnership grants and other results-based systems will be the failure to link
them with sufficient systems for analysis and evaluation that will adequately provide for
informed decisionmaking by the Federal Government, the States, and the general public.
This report documents some important initiatives that are underway across the country to
develop more meaningful approaches for managing public health programs. Developing
these systems is inherently messy, difficult and time consuming. It involves multiple
stakeholders with complex, sometimes competing, agendas. It is an expensive endeavor
and can make heavy demands on limited resources. Progress is neither straightforward
nor single-tracked. Yet, as is clear from the initiatives described here, States are making
serious efforts to develop results-based systems and are moving forward.

We document in this report a number of benefits State officials we interviewed see
emerging from their efforts. They bear repeating here. These benefits include:
(1) obtaining information efficiently, which can be used to improve program
performance; (2) empirically demonstrating program results; and, (3) obtaining consensus
among stakeholders on program missions and goals. We believe that these are significant
benefits to program managers and strategic planners.

The ultimate determinant of whether these systems succeed, however, may well be their
usefulness to those most vested in the programs: legislators, administrators, providers,
advocates, and consumers. The challenge facing these stakeholders will be to achieve an
appropriate balance when using the data from these systems to enhance decisionmaking
about program improvements, budgets and contracts, and feedback to providers and
consumers.




We received very positive comments from the Assistant Secretary for Planning and
Evaluation, the Substance Abuse and Mental Health Senices Administration, the Centers
for Disease Control, the Wealth Resources and Services Administration, and the
Secretary for Health. Their comments offered further insights on such matters as: the
impact of the Government Performance and Results Act in helping shape performance
partnerships; the data and performance measurement problems facing States; the
importance of information exchange; and, the role of Federal agencies in performance
partnerships. We were also informed that the National Research Council's Panel on
Performance Measures and Data for Public Health Performance Partnership Grants has
recently issued its first report entitled '!Assessment of Peformance Measures for Public
Health, Substance Abuse and Mental Health."

Based on these comments, changes were made to the report as appropriate. The
complete text of these comments can be found in Appendix B. We regard them as an
integral part of the report ind recommend them to the attention of the reader.
Federal Public   rant Programs
 Among the current block grants administered by the United States Department of Health
 and Human Services (HHS) for public health purposes are the Community Mental
 Health Services Block Grants, Substance Abuse Block Grant, Preventive Health and
 Health Services Block Grants, and Maternal and Child Health Services Block Grant.

Consistent with the character of block grants, the legislation establishing these grants
specifies purposes, populations to be sewed, specific activities or processes to be carried
out, reporting requirements, and limits or minimums on the uses of funds for particular
purposes. A brief description of each of these block grants follows below.



 The Public Health Service Act provides for block grants for community mental health
services. The Secretary of MHS, through the Director of the Center for Mental Health
Services, makes grants to the States each fiscal year for the purposes of providing
comprehensive community health services under a State plan, evaluating programs and
services carried out under the plan, and planning, administration and educational services
under the plan. State plans provide for the establishment and implementation of an
organized community-based system of care for adults with serious mental illness or
children with serious emotional disturbance. The plan must contain quantitative targets
to be achieved, although the Act only specifies that such targets include the numbers of
such individuals residing in the areas to be served under the system. Among other
things, specific attention must be given to: (1) reducing the rate of hospitalization for
eligible individuals, (2) providing outreach and services to eligible homeless individuals,
and, (3) estimating incidence and prevalence in the State of the conditions of eligibility.

States must establish mental health planning councils to review State plans, serve as an
advocate for individuals with mental illnesses or emotional problems, and monitor, review
and evaluate the allocation and adequacy of mental health services within the State.

No more than 5 percent of the total grant to a State may be used for administrative
expenses.

Substance Abuse Block Grants

The Public Health Service Act provides for block grants for the prevention and treatment
of substance abuse. The HHS Secretary, through the Director of the Center for
Substance Abuse, makes grants to the States each fiscal year. States must allocate a
specific minimum percentage of funds for alcohol prevention and treatment and for
prevention and treatment activities regarding other drugs. States must also spend a
specific portion of their funds to educate and counsel individuals not requiring treatment
about abuse and provide for activities to reduce their risk of such abuse.

States must submit an assessment of needs to the Secretary in order to receive a grant.
This assessment must include information by localities within the State on the incidence
and prevalence of drug abuse and alcohol abuse; current prevention and treatment
 activities in the State; the need of the State for technical assistance; efforts by the State
 to improve such activities; and, the extent to which availability of such activities matches
 the needs.

 States must provide for independent peer review to assess the quality, appropriateness,
 and efficacy of treatment services provided in the State to individuals under the program.

 No more than 5 percent of the total grant to a State may be used for administrative
 expenses.

Preventive Health and Health Services B1mk Grants

The Public Health Service Act provides for block grants-for preventive health and health
services. Allotments under this section are for preventive health services, comprehensive
public health services, and emergency medical services. Payments to States may be used
for activities designed to make progress towards Healthy People 2000 objectives.

States must develop their plans in consultation with State Preventive Health Advisory
Committees. They must specify strategies for making progress toward improving the
health status of the population and establish reasonable criteria to evaluate the
performance of entities receiving payments from the State. The statute also specifies
that States must report to the Federal Government on progress in meeting the year 2000
health objectives and use the uniform collecting and reporting formats developed by the
Secretary for this purpose.

No more than 1.0 percent of the total grant to a State may be used for administrative
expenses.

Maternal and Child Health Services Block Grant

The Public Health Service Act provides for funds to improve the health of all mothers
and children consistent with the applicable health status goals and national health
objectives established by the Secretary for the year 2000. The grants are to be used to
provide and assure mothers and children access and quality health services, reduce infant
mortality and incidence of preventable disease and handicapping conditions among
children, reduce the need for inpatient and long-term care services, increase the number
of immunized children, and other objectives.

States must report on a number of measures specified within the statute or by the
Secretary, including rate of infant mortality, rate of low birthweight births, rate of
maternal mortality, rate of neonatal deaths, and other such health status indicators.
Agency Comments
       DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Office of the Secretary


                                                                                  Washington, D.C. 20201


                                      AuG   -   7' 1997

 TO:            June Gibbs Brown
                Inspector General

 FROM:          David F. Garrison
                Principal Deputy Assistant Secretary
                                                                \
                 for Planning and Evaluation

 SUBJECT:      Comments on the OIG Draft Report: "Results-Based Systems for Public Health
               Programs," OEI-05-96-00260

Thank you for the opportunity to review this draft report. We continue to believe in the
importance of establishing performance partnerships for greater flexibility, improved
accountability, strengthened relationships with States and other partners, and, ultimately,
improved outcomes for our customers.

 The report provides a comprehensive description of current state efforts to implement results-
 based systems and the challenges involved, both at the State and Federal levels. We were
pleased to see that the report now includes examples of performance measures in each state case
study. The report reinforces many of the challenges that we have tried to address over the past
several years in our performance partnership efforts. For example, CDC and SAMHSA have
each spent the last year working to integrate some aspects of performance measurement into their
existing grants, have recognized the importance of conducting extensive stakeholder
consultations as an integral part of this process, and have modified their proposals to be
responsive to states concerns. The Department also recently commissioned the National
Academy of Sciences to develop a report on performance partnerships, Assessment of
Performance Measuresfor Public Health, Substance Abuse, and Mental Health, which provides
guidance for Departmental efforts by laying out many of the same challenges with
recommendations for addressing them.

We appreciate the opportunity to review and comment on this report. We believe that it will
provide valuable guidance as programs at the Federal and State levels implement systems of
outcome-based management, particularly as we move fonvard with our State partners on
implementation of the Government Performance and Results Act.
     DEPARTMENT OF HEALTH & N U W SERVICES                                      Public Health Service

                                                                                                                   .-

                                                                                Substance Abuse and Mental
                                                                                  Health Services Administration
                                                                                Rockville MD 20857
                                        AUG      1 1997


 TO:'                   June Gibbs Brown
                        Inspector General

FROM:                   Administrator, SAMHSA

SUBJECT:               Comments on Draft Inspector General RGort, Results-Based Systemsfor
                       Public Health Programs

Thank you for the opportunity to review this very valuable report. Not only did we find its
conclusions sound, but the information on the States' efforts will be extremely useful to all of us
--                             --
  Federal staff and the States working on SAMHSA's pilots on State performance
measurement.

Our general comments on Volume I will be followed by specific comments on each section, as
well as a few comments on Volume 11. Also, attached are more detailed comments on States'
concerns about the type of data required and the nature of accountability under a results-based
systern.

Volume 1. General Comments

As noted, we find the Report thorough and sound. We are particularly pleased that the Report
stresses the importance of top-level commitment to and stakeholder involvement in results-based
systems. States have indicated repeatedly that these two factors are critical to the success of
these efforts. We are also pleased that, on page 9, the authors state that "the use and focus of
results-based systems" calls for a "broad definition of accountability", which would lead to
targeting technical assistance and closing gaps, as opposed to a more narrow definition that
would provide clear distinctions between good and poor programs.

The Report could be even stronger, however, if it were updated in the following ways:

        Reference to the National Research Council's Panel om Performance Measures and
        Data for Public Health Performance Partnership Grants: This Panel recently issued
        its first report, Assessment ofPerformance Measures for Public Health, Substance Abuse
        and Mental Health, which provides a "framework" for performance measurement which
        clarifies that, often, a combination of process, capacity, and outcome measures is
        necessary as State and Federal officials seek to determine the contribution made by their
        resources, but that the link between process and capacity measures to outcomes must be
        well-documented. It atso provides a set of "assessment guidelines" to assess the
        appropriateness of individual measures, including that they be: results-oriented;
AUG-04-97 MON 09:29 AM




         Page 2 - June Gibbs Brown

               meaningful and understandable; valid, reliable and responsive; and that data are available
               to "support the measure." It also calls upon the Department to work with the States "to
               identify and develop common definitions and methods that will contribute to
               standardizing measurements". Finally, we urge the Report's authors to adopt the
               National Academy of Sciences Panel definitions, which include terms such as
               "performance measure" ("a qualitative indicator that can be used to track progress towird
               an objective").

         a     Clearer link to the Government Performance and Results Act: Although GPRA is
               referred to in the Report's introduction (p.2),its conceptual link to State efforts'(i.e., the
               Federal government is engaged in the same process of engaging stakeholders, identifying
               goals, and formulating measures as the States) and its impact on Federal receptiveness to
               State needs (i.e., better data on Federal programs) md "lessons learned" due to results-
               based management should be emphasized.

     State Challenges

     Attached is a background document prepared by the SAMHSA Center for Substance Abuse
     Prevention concerning data and measurement issues faced by States in implementing results-
     based systems. Three key points are made:

              Level sf aceounftability (i.e., client, program, system): "Most States appear more
              comfortable with accountability being tied to changes at the program level.... The major
              problems associated with collecting this level of data include cost/mmpower, programs
              that receive funding from multiple sources, and the fear of the providers that they will
              lose funding depending on the results."

    rn        National vs. State Data: "...whilenational surveys can resolve the issues of variation in
              definition, design .ad methodology across States, the data are of little practical use at the
              State and sub-state level. They need data at the lowest common denominator possible to
              be usehl for planning and funding. One suggestion is to provide States with suflticient
              h d s to conduct surveys (much as in State needs assessment contracts) that provide data
              at a level usehl for States, but require some common data collection (and provide
              consistent methodologies with training) so that they can be aggregated to the national
              level."

              "State data infrastructure capacity is a major issue. Most simply don't have sufficient
              funds, manpower, and or equipment to develop, implement, and maintain a performance
              measurement system."
AUG-04-97 MON 0 9 : 30 AM




         Page 3 - June Gibbs Brown

         Federal (HHS) Challenges

      We are pleased that language has been added, on page 15, that acknowledges that "agencies may
      ... be well underway in addressing [these challenges]" because SAMHSA has been engaged in a
      true partnership with the States over the past 1 112 years to shape the performance partnership
      effort related to its block grants. As a result of this partnership, we have proposed legislation to
      provide State flexibility (waivers of certain conditions in exchange for measuring performance)
      and to strengthen State data infrastructure.

      We have three minor comments on the challenges:

      e        Under "Information Exchange", we urge the authors to note the importance of
               information exchange on performance measurement efforts within the Department. Suck
               exchange could lead, for example, to standard definitions to be used across IKKHS, as well
               as models an^ Lest practices on working with States on performance partnerships.

     e         Under "Agenda for Research", authors should note the role for HHS in evaluating and
               assessing these efforts as well.

     @        Under "Adequate Evaluation Capacity", we recommend that the specific importance of
              linking these efforts to GPRA be clarified (for example, through the block grants by
              ultimately usin: State performance indicators 3s block grant GPRA measures).

     Vohme 2. State Case Studies

     Page 33 - Substance Abuse treatment is not noted for Massachusetts.

               -
     Page 43 Minnesota has an outcomes monitoring system in place for substance abuse, but this
     was not noted.

     Again, thank you for the opportunity to comment on this very worthwhile and timely Report.
     We look forward to receiving a copy of the Final Report.




                                                           Nelba Chavez, Ph.D.

     Attachment
                                                                                        Attachment




                    CENTER FOR SUBSTANCE ABUSE PREVENTION
               DISCUSSIONS WITH STATES ON RESULTS-BASED SYSTEMS
                   (FL, LA, GA, IL, MA, MN, NE, NY, NC, OH, OR, WA)



TYPES OF DATA
Statewide or program

States made it clear that, while it's easier to obtain State level data (e.g., using social indicators,
or national or Statewide surveys), they have no confidence in their usefulness re: Performance
Partnership Grants (PPGs) because the contribution of the effects of the programs they h n d and
the limited populations they serve on changes in State level data is likely to be nonsignificant. In
addition, there is no controlling for the effects of other substance abuse prevention programs on
those data. Therefore, it would seem futile to hold the single State agency accountable for
changes in results at that level. This holds true, to a lesser extent, even at a county level for most
States. The exceptions may be those States that have established State inter-agency coordination
of programs and even pooling of resources. This is by far the exception, rather than the rule.

Most States appear more comfortable with accountability being tied to changes at the program
level. The major problems associated with collecting this level of data include costhanpower,
programs that receive fknding from multiple sources, and the fear of the providers that they will
lose funding depending on the results.

Another prob!em is that, typically, States are unable (as opposed to treatment) to do long term
follow-up. Therefore, while changes in risk factors/status may be detected after involvement in
prevention programs, they will be unlikely to track long-term outcomes such as use 5-10 years
later (e.g., programs for elementary aged children).

In the CSAP Minimum Data Set pilot, interested States have focused on data at the provider
level. CSAP is currently modifying the system tested by eleven States in the Phase I pilot which
was completed May 3 1, 1997, and pursuing the refinement of definitions, methodologies and
procedures for the collection of five intermediate and outcome performance measures agreed
upon by 27 States. These were identified using a multiple focus group approach and using
selection criteria SO identified via consensus of the participating States. It is important to
recognize however, that participation is voluntary and, by the time the data collection phase
begins, CSAP expects some States to drop out.
AUG-04-97 MON 09:32 AM




      STATE ISSUES

     Measures are mother problem. Some valid data sources andfor instruments exist in some areas.
     There is much diversity among the States re: which measures to use, how they are defined etc.
     This is, therefore, a problem at the Federal level for the collection of the common core data. In
     fact, in our pilot, States used the National Academy of Sciences (NAS) criteria with the addition
     of the criterion "cheap and easy to use". Other considerations (discussed in NAS) of importance
     to States are the frequency of the data collection (especially if national survey); the speed with
     which results are obtained (a frequent criticism ); and the ability of the measure to be impacted
     by an activity (e.g., not likely to affect divorce rates).

      On the other hand, while national surveys can resolve the issues of variation in definition, design
     and methodology across States, the data are of little practical use at the State and sub-state level.
     They need data at the lowest common denominator possible to be useful for planning and
     funding. One suggestion is to provide States with sufficient funds to conduct surveys (much as
     in State needs assessment contracts) that provide data at a level useful for States, but require
     some common data collection (and provide consistent methodologies with training) so that they
     can be aggregated to the national level. State data infkastmcture capacity is a major issue. Most
     simply don't have sufficient funds, manpower, and/or equipment to develop, implement, and
     maintain a performance measurement system.

     States, while anxious, appear to see the importance and utility of performance measurement,
     especially for planning and resource allocation, and to tie to needs assessments. The issue here is
     whether the results will be used to provide technical assistance to those programs and States
     where results are disappointing, or whether the consequences will be punitive in nature.

     Although several States have Statewide performance measurement models with required
     performance measures, more use a menu approach and several permit local development and
     identification of local performance measures as long as they address Statewide goals andfor
     objectives. The more the variation, however, the less likely the data can be supportive of the
     PPG concept.

     Other related issues concern applying Statewide models to programs which, although targeting
     the same performance measure, often vary in intensity and scope.
                                                                                Public Heatth Service
         DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Centers for Disease a n t r d
                                                                                  and Prevention (CDC)




Date     -AUG 0 6 1997

From      Associate Director for Management and Operations, CDC


Subjec   CDC Comments on Office of Inspector General (OIG) Draft Report, "Results-Based
         Systems for Public Health Programs" (OEI-05-96-00260)
To       June Gibbs Brown
         Inspector General


         Thank you for the opportunity to review the draft report. Attached are CDC's comments.
         If you should have questions concerning these comments, please have your staff contact
         Carolyn Russell, Director, Management Analysis and Services Office, at (404) 639-0440.




         Attachment
             CDC Comments om the Office of the Inspector General Draft Report,
                  "Results-Based Systems for Public Health Programsy9


 Vol. 1, Pg. i, paragraph 3,

        We recommend restructuring the last sentencc as follows: These arrangements would
        combine various categorical grants into performance partnerships and would reshape
        several of its bIockgrantprograms.

 Vol. 1, Pg. ii, Challenges for the States, Paragraph 3,

        We recommend that the data objective refer to the need to take into consideration the
        availability of a system necessary to validate the data.

        Change the first sentence to read, " ...tle necessary data are available..."

Vol. 1, Pg. 8, paragraph 5, last sentence,

        Change " . . . this data. . . " to " . . .these data. . . " The same change should be made in
        the last sentence of paragraph 6.

Vol. 1, Pg. 10-17, State and Federal Challenges,

       There are many questions and issues raised regarding the implementation of
       performance-based measures. The format in which the sections were written is
       confusing, for example, questions are answered by other questions. We recommend
       explaining that the section only outlines the challenges and does not attempt to provide
       solutions.

Vol. 1, Pg. 11, paragraph 5,

       The reliability and validity of the measures are a major issues not addressed here.

Vol. 1, Pg. 12, paragraph 3,

       The paragraph states that the major problem facing states is the lack of data for persons
       enrolled in managed care; however, the real issue facing states is the need to provide
       health care coverage and the lack of data available to properly assess the impact of
       managed care. This point should be clarified.
Vol. 1, Pg. 12, paragraph 4,

        The paragraph entitled, "Are the data timely?'refers to the reconsideration of the
        usefulness of data that are two or three years old. It is also important to consider the rate
        of change of the problem and the environment before making a judgement on the
        usefulness of data.

Vol. 1, Pg. 13, paragraph 4,

       The problem seems overly simplified by focusing solely on health care providers. This
       paragraph does not reflect that problems resulting from the attempt to balance
       accountability with partnership, extend beyond health care providers participating in the
       development of measurement systems.

Vol. 1, Pg. 15, last paragraph,

       Change the word, "extendv in the last sentence, to "extent."
      DEPARTMENT OF HEALTH & H U W SERVICES            Public Health Service



                                                       Health Resources.and
                                                        Services Administration
                                                       Rockville MD 20857




AUG 2 5 1997

TO:          Inspector General, OS, DHHS      -

FROM :       Acting Deputy Administrator
SUBJECT:     Office of Inspector General Draft Reports "Results-
             Based Systems For Public Health Programs Volume 1:
             Lessons From State Initiativesf1OEI-05-96-00260 and
             8oResults-BasedSystems For Public Health Programs
             Volume 2: State Case Studies" OEI-05-96-00261

HRSA has reviewed the subject draft reports and has no comments.
Staff questions may be referred to Michael Herbst on (301)
443-5256.                            n
Endnotes
     1. For a detailed discussion of general concepts of accountability and specific issues of accountability in
     Federal block grant programs, see President's Council on Integrity and Efficiency, Committee on Inspection
     and Evaluation, Accountability for Block Grants, July 1%.

       .
    2 For a discussion of Federal grant approaches to funding public health activities, see U.S. Department of
    Health and Human Services, Office of Inspector General, Federal Approaches to Funding Public Health
    Programs, OEI-01-94-00160, July 1W5.

      .
    3 The President's Fiscal Year (FY) 1996 budget included a proposal for 16 Performance Partnerships in
    the Public Health Service, including the consolidation of various grant programs within Centers for Disease
    Control (CDC), Health Resources and Services Administration (HRSA), and the Substance Abuse and Mental
    Health Services Administration (SAMHSA). In the FY 1997 budget,ihe Administration continued to propose
    performance partnerships for CDC, HRSA and SAMHSA In the FY 1998 budget, the Administration
    emphasized performance partnerships within SaMHSA only.

    Both Representative John Dingell and former Senator Nancy Kassenbaum introduced bills in the 104th
    Congress that would have implemented the performance partnership model for public health service programs,
    and specifically for mentrl health and substance abuse block grants.

    4.    The National Research Council's Panel on Performance Measures and Data for Public Health
    Performance Partnership Grants has recently issued its first report: "Assessment of Peformance Measures for
    Public Health, Substance Abuse and Mental Health."

,   5. A recent report by the Institute of Medicine, summarizing a workshop on performance monitoring for
    improving community health, identified a wide range of activities by Federal and non-Federal organizations.
    For example:

            The National Committee for Quality Assurance has developed the Health Plan Employer Data and
            Information Set to collect standardized information from health plans for their own use in assessing
            their performance, and to help purchasers make decisions among health plans. The Committee is also
            active in assisting health plans to improve their capacities for data collection, analysis and reporting.

            The Joint Commission on Accreditation of Healthcare Organizations is moving beyond standards to
            develop indicators for assessing the reliability of the standards in predicting actual performance. The
            Indicator Measurement System was originally developed for hospitals and is now being expanded.

           The HHS is responsible for Healthy People 2000, a set of objectives regarding the health promotion
           and disease prevention with goals to be accomplished by the issued model standards for translating
           those national year 2000. The American Public Health Association has set goals into community
           action plans.

           The HHS, through the Agency for Health Care Policy and Research, funds research on health care
           outcomes and quality measurement.

           The HHS, through the National Center for Health Statistics, assembles vital statistics and conducts
           significant health related surveys.

For further information, see National Academy of Sciences, Institute of Medicine, Using Performance
Monitoring to Improve Contntunir))Health: Exploring the Issues, Workshop Summary, 1996.
 6 . Among the national health organizations working with HHS were: the Association of State and
 Territorial Health Officers, the National Association of State Alcohol and Drug Abuse Directors, the National
 Association of State Mental Health Program Directors, and the National Association of City and County
 Health Officials.

   .
7 National Academy of Sciences, Committee on National Statistics, Assessment of Performance Measures
in Public Health, Phase I Report, Draft: for Co@ntent, September 1996. The report proposed performance
measures in the areas of chronic disease, HIV/STD/Tl3, mental health, immunization, substance abuse, sexual
assault prevention, disability prevention, and emergency medical services.

   .
 8 The U.S. General Accounting Office, which has written extensively on this subject, noted in a September
 1995 report:

        While State efforts will certainly be closely tied to block grant results, outcomes will just as certainly
        be affected by factors outside the control of state administrators. Because of the role that these
        variables may play, evaluation will need to kolate the effect of outside factors on state programs.
        [Emphask added.] For example, the incidence of low birth weight infants depends not only on the
        efforts of a particular state and local agency to fill the gaps in prenatal care, but also on many other
        demographic and situational factors, such as regional employment trends and demographic patterns ...

See U.S. General Accounting Office, Block Grants: Issues in DesigningAccountability Provisions, GAOIAIMD-
95-226, September 1995.

  .
9 National Academy of Sciences, Committee on National Statistics, Assessment of Performance Measures
in Public Health, Phase I Report.

1 0 . See, for example, Department of Health and Human Services, Office of Inspector General, Federal
Approaches to Funding Public Health Progrants, OEI-01-91-00160, July 1995.
